No. 20IN THE

Supreme Court of the United States
JOHN WAYNE COLLINS,
Petitioner,
v.
JAMES DAVID GREEN, WARDEN
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Edward Williams, a member of
the bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 8,489 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on May 17, 2021.

EDWARD WILLIAMS
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
ed.wiilliams@wilmerhale.com

